                                 Case Closeout - MOO020005
                                          Redacted

        Our office received two allegations of failure to provide authorship credit and one
allegation of retaliation against a whistleblower.

        According to the first allegation, a professor (subject)' failed to provide proper
authorship credit in a published manuscript by crediting the contributions of two research
assistants (complainant 1 and Complainant 212 in the acknowledgements section of a
manuscript3 instead of listing the Complainants as co-authors. The Complainants allege their
experiments led to an important discovery, and without this discovery, the Subject could not
have performed the experiments necessary for the publication of the manuscript.

       In response to a letter from NSF OIG, the university4 produced an inquiry committee
report which examined the question of whether the Complainants' contributions to the research
performed in the Subject's laboratory merited authorship credit on this manuscript. The
university inquiry committee examined the authorship claims in accordance with university
policy along with the criteria for authorship as set forth in "Authorship, Data Ownership
Examined." Culliton, BJ. Science (1988) 658,242. According to this article, in order to qualify
as an author, an individual must fulfill two of the following four requirements:


                     Conception of idea and design of experiment;
                     Actual execution of experiment;
                     Analysis and interpretation of research data;
                     Actual writing of the manuscript


        The university inquiry committee rejected the authorship claims of Complainant 2, as this
individual left the Subject's laboratory six months before any of the critical discoveries discussed
in the manuscript. In response to Complainant 1's allegation, the inquiry committee concluded
that although Complainant 1 performed some preliminary research in the Subject's laboratory,
the research presented in the manuscript involved more sophisticated experimentation which was
performed after Complainant 1 left the Subject's laboratory. After considering the written
documentation from Complainants 1 and 25 along with oral and written testimony of the Subject
    I
      [footnote redacted]
      [footnote redacted]
      [footnote redacted]
      [footnote redacted]
       The inquiry committee did not conduct interviews with the Complainants. However, in an addendum to the
final report, a member of the inquiry committee noted that "a careful investigation was carried out and four
investigators were interviewed who had worked in [the Subject's] laboratory over the same time period as [the
Complainants]. Additionally, the committee examined laboratory records and experimental data collected at that
time" (Exhibit [redacted]). In addition, the inquiry committee member notes "in retrospect[] it might have been


                                              Page 1 of 2                                    MOO-05
and several members of the Subject's laboratory, the university inquiry committee concluded the
Complainants did not satisfy any of the four requirements for authorship and found "no
indication that either Complainant contributed materially to the design of the experimental
approaches described in that paper, nor did they contribute in any other manner to a paper
written long after they had left the ~ a b o r a t o r ~ .Accordingly,
                                                          "~           the university inquiry committee
dismissed the authorship credit allegations without prejudice.

        The second allegation claims the Subject failed to provide proper authorship credit on
another published manuscript.7 According to the Complainants' letter to NSF OIG, Complainant
1 "did a lot of work for this paper and [the Subject] promised to put [Complainant l's] name in
the author list. But when the paper was published [Complainant l's] name was in the
acknowledgements with wrong spelling." The inquiry committee did not address this allegation;
as Complainant 1 never made a formal or informal complaint to the university. In addition,
Complainant 1 never provided any evidence to support this allegation to NSF OIG, in stark
contrast to the extensive evidence provided by the Complainants in support of the first allegation.
In a response letter to NSF OIG dated 26 May 2000, the Subject stated that Complainant 1 only
provided a sample of the material necessary for the research and "never contributed to the design
of the experiments [or] participate in any of the initial experiments." Accordingly, the Subject
only listed Complainant 1 in the acknowledgements section.

        According to the final allegation, the Subject requested that a third party threaten the
Complainants with deportation because of the authorship dispute. The third party never
delivered this message and the Complainants provided no additional evidence to substantiate this
allegation. Although university counsel sent a letter to complainant 1's present employer8
concerning the authorship allegations, this letter did not contain any threats or even mention
deportation.

       After considering the inquiry committee report along with all relevant oral and written
documentation, our office concludes that a formal investigation into these allegations is not
supported by the evidence. Accordingly, this inquiry is closed and no further action will be
taken by our office.



cc: IG, Investigations




beneficial to permit the accused the opportunity to confront and cross-examine [the Complainants] [as set forth in
university guidelines], it seemed extremely improbable that .either [Complainant] would benefit from such a
confrontation. (Exhibit [redacted]).
      [footnote redacted]
      [footnote redacted]
      [footnote redacted]


                                               Page 2 of 2                                      MOO-05
